Department of Homeland Security
   Ofﬁce of Inspector General

            FEMA's Progress in Implementing the 
 

            Remedial Action Management Program 
 





OIG-11-32                                       January 2011
                                                             Office ofInspector General

                                                             U.S. Department of Homeland Security
                                                             Washington, DC 20528




                                                             Homeland
                                                             Security
                                 JAN 1 9 2011

                                         Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
established by the Homeland Security Act 0/2002 (Public Law 107-296) by amendment
to the Inspector General Act 0/1978. This is one of a series of audit, inspection, and
special reports prepared as part of our oversight responsibilities to promote economy,
efficiency, and effectiveness within the department.

This report addresses the strengths and weaknesses of the Federal Emergency
Management Agency's Remedial Action Management Program. It is based on interviews
with employees and officials of relevant agencies and institutions, direct observations,
and a review of applicable documents.

The recommendations herein have been developed to the best knowledge available to our
office, and have been discussed in draft with those responsible for implementation. We
trust this report will result in more effective, efficient, and economical operations. We
express our appreciation to all of those w 0 c ributed to the preparation of this report.
                                                    .----­

                                       att Jad cki
                                     Assistant Inspector General
                                     Office of Emergency Management Oversight
Table of Contents/Abbreviations
Executive Summary .............................................................................................................1 
 


Background ..........................................................................................................................2 
 


Results of Audit ...................................................................................................................4 
 


     FEMA’s Implementation of the Remedial Action Management Program ....................4 
 

     Recommendations..........................................................................................................9 
 

     Management Comments and OIG Analysis ..................................................................9 
 



Appendices
     Appendix A: Purpose, Scope and Methodology........................................................11 

     Appendix B: Management Comments to the Draft Report .......................................12 

     Appendix C: Remedial Action Management Program Lessons Learned and Best 

                 Practices Process..................................................................................15 
 

     Appendix D: Major Contributors to this Report ........................................................16 
 

     Appendix E: Report Distribution ..............................................................................17 
 


Abbreviations
     FEMA                  Federal Emergency Management Agency 
 

     OIG                   Office of Inspector General 
 

OIG
 

Department of Homeland Security
Office of Inspector General

Executive Summary
                   The Federal Emergency Management Agency’s (FEMA) Remedial
                   Action Management Program is intended to: (1) identify
                   operational and programmatic issues, lessons learned, and best
                   practices encountered during federal disaster response and
                   recovery operations and exercises; (2) manage the subsequent
                   remediation of issues; and (3) distribute lessons learned and best
                   practices. Our audit objective was to determine to what extent
                   FEMA has implemented the Program to identify and distribute
                   lessons learned and best practices to improve its incident
                   management operations.

                   FEMA needs to improve its implementation of the Remedial
                   Action Management Program to identify lessons learned and best
                   practices. Specifically, FEMA officials should: (1) conduct an
                   after-action review for every disaster to identify lessons learned
                   and best practices; and (2) develop instructions or examples on
                   how to develop clear and concise lesson learned and best practice
                   statements.

                   Program officials distributed lessons learned and best practices to
                   more personnel than what was required by program policy.
                   However, distribution was still limited to the program’s database
                   users, averaging 70 users. Program officials told us that those
                   users served as organizational points of contact and disseminated
                   the information to others.

                   In May 2010, FEMA lost access to program data, including lessons
                   learned and best practices, when the server which housed the
                   program’s database failed. In November 2010, program officials
                   informed us that they were able to recover all of the data; however,
                   the software necessary to read the data has not been restored.
                   Therefore, historical data on lessons learned and best practices that
                   was contained in the program’s database is not available to all
                   FEMA personnel.

                   We are making six recommendations that, when implemented,
                   should improve FEMA’s efforts to identify and distribute lessons
                   learned and best practices.

         FEMA’s Progress in Implementing the Remedial Action Management Program 


                                         Page 1

Background
                             The Federal Emergency Management Agency (FEMA) launched
                             the Remedial Action Management Program in July 2003. The
                             program’s purpose is to: (1) identify operational and programmatic
                             issues, lessons learned, and best practices encountered during
                             federal disaster response and recovery operations and exercises;
                             (2) manage the subsequent remediation of issues; and (3) distribute
                             lessons learned and best practices. The Program defines an issue
                             as a problem that negatively impacts FEMA’s ability to
                             accomplish its mission or a systemic problem that cannot be
                             resolved in the field and requires the attention of Program
                             Managers or senior leadership to resolve. A lesson learned is a
                             course of action that was either extremely successful or
                             unsuccessful and should be shared with other FEMA personnel. A
                             best practice is an innovative or unconventional course of action
                             that proved particularly effective and should be repeated or
                             considered under similar circumstances. It may also be a course of
                             action that has met with repeated success.1

                             The Remedial Action Management Program is housed in the
                             National Preparedness Directorate, National Preparedness
                             Assessment Division, Corrective Actions and Lessons Learned
                             Branch. It is responsible for:

                                  •	 Developing policy and managing the Program;
                                  •	 Maintaining the program’s database, which houses issues,
                                     lessons learned, and best practices;
                                  •	 Monitoring the resolution of and reporting the status of
                                     issues;
                                  •	 Ensuring lessons learned and best practices are widely
                                     disseminated; and
                                  •	 Preparing, publishing, and distributing a monthly Remedial
                                     Action Management Program report with newly identified
                                     lessons learned and best practices, and the status of issues.

                             It does not have oversight of the Regions’ program responsibilities.

                             FEMA Regional Offices are responsible for coordinating and
                             scheduling after-action reviews on site at operational venues with
                             disaster response and recovery operations personnel at or near the
                             conclusion of emergency or disaster operations to identify issues,


1
    For the purposes of this audit, we limited the scope to focus only on lessons learned and smart practices.


                  FEMA’s Progress in Implementing the Remedial Action Management Program 
 


                                                      Page 2
 

                          lessons learned, and best practices.2 The after-action review is
                          considered the foundation of the Program, as it provides
                          participants with a forum to candidly discuss their views. The
                          Regions are also responsible for collecting and transmitting to
                          FEMA Headquarters issues, lessons learned, and best practices
                          identified in after-action reviews. Until May 2010, lessons learned
                          and best practices identified in after-action reviews were entered
                          into the program’s database to be distributed to database users.
                          See Appendix C for a detailed description of the after-action
                          review and distribution process.

                          In May 2010, the Deputy Administrator for Protection and
                          National Preparedness advised all FEMA employees to stop using
                          the program’s database because it was housed on a server that was
                          no longer being supported by FEMA, and it could cease operating.3
                          As a replacement, FEMA integrated the functions of the Remedial
                          Action Management Program’s database with the Corrective
                          Action Program system. The system, which was launched in 2007,
                          is a web-based application that enables users to prioritize, track,
                          and analyze improvement plans developed from exercises and real-
                          world events. Features of the system include improvement plan
                          creation and maintenance, corrective action assignment and
                          tracking, and reporting and analysis. For the Remedial Action
                          Management Program, the newly integrated Corrective Action
                          Program system will house data on issues, and FEMA personnel
                          will be able to generate after action reports and improvement
                          plans. FEMA began integrating the functionalities of the two
                          systems in February 2009, and by July 2010, the new Corrective
                          Action Program system was available to Remedial Action
                          Management Program users.




2
  During our review, program guidance referred to an “after-action review” as a “hotwash.” To be
consistent with new program guidance, we have changed our terminology to “after-action review.”
3
  The server which housed the database failed in May 2010, a few days after employees were advised to
stop using the database.


               FEMA’s Progress in Implementing the Remedial Action Management Program 


                                                 Page 3

Figure 1. Remedial Action Management Program Information Systems


                  BEFORE                        Î                       AFTER
 Remedial Action Management Program Database                Corrective Action Program System

              •   Issues                                           •   Issues
              •   Lessons Learned
              •   Best Practices                       Lessons Learned Information Sharing System

                                                                   •   Lessons Learned
                                                                   •   Best Practices


                      For lessons learned and best practices, program officials are
                      advising regional personnel to use the Lessons Learned
                      Information Sharing system. FEMA launched the Lessons
                      Learned Information Sharing system in 2004. The system is an
                      online library of lessons learned and best practices submitted by
                      federal and state emergency response providers and homeland
                      security officials. In November 2010, program officials stated that
                      they have established a FEMA-only area in the Lessons Learned
                      Information Sharing system for Remedial Action Management
                      Program lessons learned and best practices. This area will be
                      accessible to all FEMA personnel who obtain a user account for
                      the Lessons Learned Information Sharing system. Program
                      officials plan to conduct outreach for this new area, and they also
                      plan to develop and disseminate a monthly newsletter tailored to
                      FEMA personnel.

Results of Audit
       FEMA’s Implementation of the Remedial Action Management
       Program
              FEMA needs to improve its implementation of the Remedial Action
              Management Program to identify lessons learned and best practices.
              Specifically, FEMA officials should conduct after-action reviews for
              every disaster to identify lessons learned and best practices. In addition,
              FEMA needs to prepare better instructions or examples on how to develop
              clear and concise lesson learned and best practice statements. Although
              program officials distributed lessons learned and best practices to more
              personnel than required by program policy, distribution was still limited.
              FEMA should expand the distribution to the significant number of
              additional employees who would benefit from this information.


            FEMA’s Progress in Implementing the Remedial Action Management Program 


                                            Page 4

  Furthermore, FEMA has lost access to program data, including lessons
  learned and best practices. Thus, FEMA should enhance its archiving
  procedures to prevent such incidents in the future.

          Identification of Lessons Learned and Best Practices

          FEMA officials do not always conduct after-action reviews to
          identify lessons learned and best practices. Program policy
          dictates that after-action reviews will be scheduled at or near the
          conclusion of emergency or disaster operations. The Team Leader,
          e.g., the Federal Coordinating Officer, the Regional Operations
          Center Director, etc., is responsible for coordinating and
          scheduling after-action reviews. However, FEMA officials stated
          that in some cases, Federal Coordinating Officers and Planning
          Section Chiefs have decided to hold informal discussions with
          personnel instead of conducting formal Remedial Action
          Management Program after-action reviews. In other cases, FEMA
          officials noted that the magnitude of the disaster and
          circumstances, such as budget, timing, and personnel, could affect
          whether a Team Leader chose to conduct an after-action review.

          FEMA officials largely conducted after-action reviews according
          to program policy. One exception we noted is in the appointment
          of after-action review facilitators. After-action review facilitators
          were not appointed according to a policy which prohibits
          facilitators from working in their own Regions or with their own
          Federal Coordinating Officers. For an after-action review we
          observed in July 2010, the facilitator was from the same FEMA
          Region where the disasters occurred. A regional official said
          facilitators from his Region conduct approximately 90% of the
          Region’s after action reviews. Program officials said that, due to a
          lack of travel funds, using facilitators from other Regions has been
          abandoned unless there is an extraordinary reason, such as a
          catastrophic incident. However, assigning a facilitator from a
          different Region is a programmatic requirement, and according to a
          FEMA Headquarters official, traveling to another Region to
          facilitate an after-action review is not an overwhelming financial
          burden. Thus, there is no financial reason that outweighs not
          following program policy.

          More than 20 individuals from FEMA and various federal and state
          agencies and departments participated in the July 2010 after-action
          review for several storm and flooding disasters in Region VIII.
          Participants identified and thoroughly discussed six lessons learned
          and seven best practices. Participants concluded that only one


FEMA’s Progress in Implementing the Remedial Action Management Program 
 


                                Page 5
 

          lesson learned and four best
          practices had national
                                                     Lessons Learned and Best Practices
          significance and would be
          forwarded to FEMA                         & In order to open Disaster Recovery
          Headquarters for review and               Centers within 24 hours of declaration,
          distribution.                             the Group Supervisor was deployed to
                                                    the State Emergency Operations Center
          FEMA officials stated that                prior to the declaration.
          better instructions or examples
          on how to develop clear and               & When a shelter was opened, a mass
          concise lesson learned and                care specialist was deployed to assist
          best practice statements are              with the coordination of obtaining
                                                    critical situational information in order
          needed because too much time              to fill the gaps and ensure the health and
          is spent during the after-action          safety of shelter residents. He/she
          review analyzing the                      worked closely with the American Red
          statements and on                         Cross and other agencies responsible for
          “wordsmithing.” For example,              the operation of shelters, including the
                                                    state and the U.S. Department of Health
          at the July 2010 after-action             and Human Services.
          review, a significant amount of
          time was spent discussing the
          lesson learned and best                   & The State of North Dakota set up a
                                                    weekly conference call to allow local
          practice statements, and the              officials the opportunity to ask questions
          group determined that two of              directly of state and FEMA program
          the lessons learned were in               leads. This call was highly effective at
          fact issues. Better instructions          facilitating communication between
          and examples could speed the              local officials and disaster recovery
                                                    program staff.
          process.

          Our review of lessons learned and best practices indicates that field
          personnel are identifying ways to improve future incident
          management operations (see text box). FEMA officials are also
          converting lessons learned and best practices into policy. One
          official said his Region has used information collected through the
          Program to “tweak” its policies and guidance. Officials also stated
          that lessons learned and best practices have been implemented in
          their Regions to improve FEMA’s incident management operations
          (see text box on next page).




FEMA’s Progress in Implementing the Remedial Action Management Program 
 


                                Page 6
 

                  Implementation of Lessons Learned and Best Practices

              & A regional official reported that a lesson learned from several
              disaster response operations was that FEMA should deploy Mobile
              Disaster Registration Centers earlier in a disaster or make those
              units ready to respond earlier. In several disasters, this lesson
              learned was applied, and Mobile Disaster Registration Centers
              deployed earlier or were ready to deploy earlier. As a result,
              FEMA was better able to register and assist disaster survivors in
              areas where there was a long-term and widespread lack of
              electricity. FEMA was also better able to assist disabled and less
              technologically savvy survivors.

              & A regional official reported that his Region adopted External
              Affairs best practices from another Region.



          Distribution of Lessons Learned and Best Practices

          Program officials have distributed lessons learned and best
          practices beyond what was required by program policy, but
          distribution was still relatively limited. According to the
          Program’s Database User Guide, once the Program Manager
          approves lessons learned and best practices, the database generates
          an e-mail notification with a link to the lesson learned or best
          practice to all Remedial Action Managers – the primary point of
          contact for program activities for a division, office, or Region. The
          Program Manager stated that she actually forwarded lessons
          learned and best practices to all database users, which at the height
          of its use averaged 70 users. FEMA has over 7,000 employees in
          Headquarters and the Regions and approximately 9,000 Disaster
          Assistance Employees. Many of these employees could benefit
          from a wider distribution of lessons learned and best practices.

          Lessons learned and best practices were further distributed by
          regional officials. Several regional officials said they forward
          lessons learned and best practices to Regional Administrators,
          Branch Chiefs, and Division Directors. One Region shares lessons
          learned and best practices at Regional Interagency Steering
          Committee meetings. A regional official said that lessons learned
          and best practices must be distributed in a more effective manner
          because “in the heat of battle” emergency personnel do not have
          the time to research previously identified lessons learned and best
          practices – he believes that they must be made a part of the training
          curriculum, or they will not be implemented.


FEMA’s Progress in Implementing the Remedial Action Management Program 


                                 Page 7

          Program officials also initially followed policy regarding the
          distribution of Remedial Action Management Program reports to
          senior FEMA leadership. These monthly status reports included
          newly identified best practices and lessons learned and were posted
          on the FEMA intranet. However, program officials stated that in
          2007 a senior FEMA official made the decision to discontinue the
          monthly reports. According to regional officials, this decision sent
          a message to the Regions that the Remedial Action Management
          Program is not a priority, leading personnel to not take the
          Program seriously. Program officials stated that current senior
          FEMA leadership supports the Program, which is evidenced by the
          resources that have been dedicated to the new system.

          In May 2010, FEMA lost access to program data, including lessons
          learned and best practices, when the server which housed the
          program’s database failed. The Program Manager was working
          with FEMA’s Information Technology department to implement a
          data archiving plan. However, the plan was not implemented
          before the server failed. In November 2010, program officials
          informed us that they were able to recover all of the data; however,
          the software necessary to read the data has not been restored.
          Therefore, historical data on lessons learned and best practices are
          not available to all FEMA personnel.

          Conclusion

          By not effectively implementing the Remedial Action
          Management Program to identify and more fully distribute lessons
          learned and best practices, FEMA has missed opportunities to learn
          from the experiences of its personnel and improve its incident
          management operations. Specifically, FEMA officials have not
          conducted after-action reviews for every disaster to identify
          lessons learned and best practices. Furthermore, although program
          officials distributed lessons learned and best practices beyond what
          was required by program policy, they were not distributed to all
          response and recovery personnel or to senior leadership. Finally,
          FEMA lost access to program data when the server which housed
          the program’s database failed before data could be archived.
          Therefore, historical data on lessons learned and best practices are
          no longer available to all FEMA personnel.




FEMA’s Progress in Implementing the Remedial Action Management Program 
 


                                Page 8
 

  Recommendations
          We recommend that the Director, National Preparedness
          Assessment Division:

          Recommendation #1: Enforce the Remedial Action Management
          Program’s policy to conduct after-action reviews for all disasters.

          Recommendation #2: Require that Division Directors appoint
          after-action review facilitators according to program policy.

          Recommendation #3: Develop instructions with examples on
          how to develop clear and concise lesson learned and best practice
          statements.

          Recommendation #4: Disseminate lessons learned and best
          practices more widely.

          Recommendation #5: Develop and implement a process for
          archiving Remedial Action Management Program data so that data
          loss does not recur.

          Recommendation #6: Develop and distribute a Remedial Action
          Management Program status report to senior FEMA leadership
          according to program policy.


  Management Comments and OIG Analysis

          Recommendation 1: FEMA’s Office of Policy and Program
          Analysis concurred with this recommendation. FEMA has drafted
          new program guidance on after-action reviews based on feedback
          from a working group that included Headquarters and regional
          personnel.

          We consider this recommendation resolved because steps are being
          taken to implement it; however, it will remain open until the new
          program guidance that details FEMA’s plan for implementing and
          enforcing the after-action review policy is finalized.

          Recommendation 2: FEMA’s Office of Policy and Program
          Analysis concurred with this recommendation. FEMA is revising
          its program guidance, recommending that a representative from
          outside the assigned component guide the data collection effort in



FEMA’s Progress in Implementing the Remedial Action Management Program 
 


                                Page 9
 

          close coordination with a representative from within the
          component.

          We consider this recommendation resolved because steps are being
          taken to implement it; however, it will remain open until the new
          program guidance is finalized.

          Recommendation 3: FEMA’s Office of Policy and Program
          Analysis concurred with this recommendation. FEMA is
          developing instructions and plans to issue them in the second
          quarter of Fiscal Year 2011.

          We consider this recommendation resolved because steps are being
          taken to implement it; however, it will remain open until the
          instructions are finalized and issued.

          Recommendation 4: FEMA’s Office of Policy and Program
          Analysis concurred with this recommendation. FEMA is
          developing a monthly Lessons Learned Information Sharing
          system newsletter tailored for FEMA personnel.

          We consider this recommendation resolved because steps are being
          taken to implement it; however, it will remain open until the first
          newsletter is developed and disseminated.

          Recommendation 5: FEMA’s Office of Policy and Program
          Analysis concurred with this recommendation. FEMA reports that
          the newly integrated Corrective Action Program system and the
          Lessons Learned Information Sharing system are backed up daily
          and the servers are backed up weekly. These backups are routinely
          stored offsite.

          We consider this recommendation resolved and closed because it
          has been fully implemented.

          Recommendation 6: FEMA’s Office of Policy and Program
          Analysis concurred with this recommendation. FEMA has drafted
          new program guidance regarding status reports to senior FEMA
          leadership.

          We consider this recommendation resolved because steps are being
          taken to implement it; however, it will remain open until the new
          program guidance is finalized.




FEMA’s Progress in Implementing the Remedial Action Management Program 
 


                                Page 10
 

Appendix A
Purpose, Scope, and Methodology

                     The objective of our audit was to determine to what extent FEMA
                     has implemented its Remedial Action Management Program and is
                     identifying and distributing lessons learned and best practices to
                     improve incident management operations.

                     We conducted interviews with FEMA Headquarters and regional
                     officials and examined documentation related to the Remedial
                     Action Management Program, including the Program Manual,
                     Facilitator Handbook, and Program Reports for specific disasters.
                     We also observed an after-action review conducted in July 2010.

                     We conducted this performance audit between May 2010 and
                     August 2010 pursuant to the Inspector General Act of 1978, as
                     amended, and according to generally accepted government
                     auditing standards. Those standards require that we plan and
                     perform the audit to obtain sufficient, appropriate evidence to
                     provide a reasonable basis for our findings and conclusions based
                     upon our audit objectives. We believe that the evidence obtained
                     provides a reasonable basis for our findings and conclusions based
                     upon our audit objectives.




           FEMA’s Progress in Implementing the Remedial Action Management Program 
 


                                           Page 11
 

Appendix B
Management Comments to the Draft Report



                                                                              l.s.l,"""n-.o. at It_ _ d   S<nIriI~


                                                                              <till ( Slr«t. $\\
                                                                               \\......... 'll-~n



                                                                   {aF E MA
                                                                    .~



                                               DEC J 7   2Il~




          MEMORANDUM FOR:               Matt Jadacki
                                        Assistant Inspector G(:fl\T.I1
                                        Office of Emergency Managcm(:flt (h'crsight
                                        Office of InspccJ!lL..Genend
                                        1l4{-"         c7'""'-- / ~
                                        Da\"id J. Kaufman
                                                                  -
          FROM:
                                        Director
                                        Officc of Policy and Progrom An:tlysis

          SUBJECf:                      Comments on OIG Draft Report, Ft:IlfA's Prognss in
                                        /mp/e/JIelJ/ing the Remedial Action MOIwgemelrt Program

          Thank you for the opportunity to n:view and comment on the Office of Inspector
          General's (OIG's) subject draft audit report, As the Fl.-deral Emcrg(:fley Management
          Agency (FEMA) works toward refining its progrnms, the OIG's ind1.1)(:ndl.'Ilt analysis of
          program pcrfonnance greatly benefits our ability to continuously improve our activities.
          Tl."thnieal comments have been provided under separate cover.

          This OIG audit focused 011 the legacy Rellll,.-dial Action Management Program (RAMP)
          in place between January 2004 and May 2010. At the time of this review. May 2010
          through August 2010, FEMA was already in the process of reviewing the program.
          updating the policy and guidance, and consolidating the software with the COrTl."Ctive
          Action Program (CAP) and the Lessons Leam.::d lnfonnlltion Shll1;nl> system (LLlS.gov).
          That elTon began in February 2009 and is ongoing. FEMA has made progress in
          implementing the newly combined RAMP/CAP system and has beell implementing some
          of the recommendations contained in this report us the review moved forward.

          On page I ofllle draft report, paragraph 3, please revise as follows, for lIccuraey:
          "Program officials distribuled lessons learned and best pruetiees 10 the Program's
          database users, whieh averaged aboul 70 USC1'S. Per program policy. those users served as
          organizational poinls of contact and disseminated lhe inforn13tion 10 olhl,.'rS as
          appropriate,"'




           FEMA’s Progress in Implementing the Remedial Action Management Program 
 


                                                   Page 12
 

Appendix B
Management Comments to the Draft Report




          Page 2

          On page 4, fint pal1IgJ1IPh, FEMA suggests that the draft be revised [() include the
          following: "The program office reportS that outreach for the new FEMA channel within
          LUS will be conducted as part of the launch of the new RAMP/CAP program directive
          and manual. They will also develop and disseminate a monthly LUS.gov newsletter
          tailored to FEMA personnel:'

          On page 5, first paragraph, with respect to the discussion regarding using facilitators for
          after-action reviews (or hotwashes as the draft report calls them), please delete that
          paragraph and include the infonnation in our response to Recommendation 2 below.

          FEMA concurs or conditionally concurs with the draft report's six recommendations.
          For the two recommendations with which we conditionally concur, we provide suggested
          revisions to the wording of the recommendation. FEMA believes adequate actions have
          been taken to close Recommendations 2 and S.

          The following are FEMA's comments reganling the six reoommendations contained in
          the draft report:

          RKOftlIDtlldatioll 'I: Enforce the Remedial Action Management Program's policy [()
          00Dduct hotwashes for all disaslcn.

          FEMA RtsPOIlH: FEMA conditionally concurs with this recommendation as cum:ntly
          written. In order 10 fully concur, FEMA requests that the IG replace the term
          'hotwashcs' with 'after-action reviews: Based on feedback from a FEMA working
          group, which included headquarters and regional representatives., new draft program
          guidance states that an aftcr-aetion review (vice hotwash) is required for every exercise
          and real-world event managed or supponed by FEMA; the scope and content of the
          review is scalable based on the scope and complexity of the event and reviews can be
          combined as appropriate for an event series (e.g., an exercise series or multiple related
          disasters occurring in a short time frame). The new draft program guidance emphasizes
          the process; hotwashes have been redefined as short events to collect raw input and aftcr-
          action conferences have been added (consistent with the Homeland Security Exercise and
          Evaluation Program) as the primary mechanism to bring participants [()gether to review
          observations, corrective actions, and lessons learned for the after-action report and
          improvement plan.

          RKOmmtndatioll #2: Require that Division Directors appoint hotwash facilitators
          according [() program policy.

          FEMA ResPOOH: FEMA COllCUrS with this recommendation. Based on fetdback from
          • FEMA working group, which included headquartc:n and regional representatives, new
          dnft program guidance removes the restriction on facilitators/data collectors working in
          their home oomponenL The new draft guidance states:""o conduct an impartial data
          collection effort, it is rccommcnded that. representative from outside of the assigned




           FEMA’s Progress in Implementing the Remedial Action Management Program 
 


                                                    Page 13
 

Appendix B
Management Comments to the Draft Report




          Page 3

          component guide the data collection effort in close coordination with a representative
          from within the component, to provide the necessary local perspective."

          FEMA asks that this recommendation be considered closed.

          Recommendation #3: Develop instructions with examples on how to develop clear and
          concise lesson learned and best practice statements.

          FEMA Response: FEMA concurs with this recommendation. Efforts are underway to
          develop and issue instructions, with a target date for completion in second quarter fiscal
          year 201 1.

          Recommendation #4: Disseminate lessons learned and best practices more widely.

          FEMA Response: FEMA concurs with this recommendation. Efforts are underway to
          develop and disseminate a monthly LUS.gov newsletter tailored for FEMA personnel,
          with a target date for completion within 90 days of issuance of the new FEMA
          RAMP/CAP manual.

          Recommendation #S: Develop and implement a process for archiving Remedial Action
          Management Program data so that data loss does not recur.

          FEMA Response: FEMA concurs with this recommendation. This issue has been
          resolved. We have confirmed with IT support that the CAP and LLIS databases are
          backed up every night and the servers are backed up weekly. We also have the ability to
          implement a complete restoration of all systems within 72 hours in the case of
          catastrophic disaster; backups are routinely stored ofTsite.

          FEMA asks that this recommendation be considered closed.

          Recommendation #6: Develop and distribute the monthly Remedial Action
          Management Program status report to senior FEMA leadership according to program
          policy.

          FEMA Response: FEMA conditionally concurs with this recommendation as currently
          written. In order to fully concur, FEMA requests that the OIG delete the word 'monthly.'
          Based on feedback from a FEMA working group, it is important to provide meaningful
          reports at the proper frequency; under the new RAMP/CAP, new draft program guidance
          states that we will provide quarterly reports.

          Thank you again for the opportunity to comment on this draft report and we look forward
          to working with you on other issues as we both strive to improve FEMA.




           FEMA’s Progress in Implementing the Remedial Action Management Program 
 


                                                    Page 14
 

Appendix C
Remedial Action Management Program Lessons Learned and Best Practices
Process



Remedial Action Management Program Lessons Learned and Best Practices Process4

          Team Leader (e.g., Federal Coordinating Officer) schedules after-action review
                                                  Ø
                             After-action review facilitator is appointed
                                                  Ø
          Lesson Learned/Best Practice Data Collection Forms are distributed to personnel
                                                  Ø
                                 Facilitator reviews completed forms
                                                  Ø
                               Facilitator conducts after-action review
                                                  Ø
Facilitator reviews and organizes lessons learned and best practices identified in after-action review
                                                  Ø
           Facilitator enters lessons learned and best practices into the program’s database
                                                  Ø
                  Facilitator Supervisor reviews lessons learned and best practices
                                                  Ø
       Facilitator Supervisor forwards lessons learned and best practices to Program Manager
                                                  Ø
                    Program Manager reviews lessons learned and best practices
                                                  Ø
    Program Manager distributes lessons learned and best practices to Remedial Action Managers




4
 This graphic is based on the Facilitator Handbook and original Remedial Action Management Program
Manual and Database User Guide. FEMA is updating both to incorporate the business processes associated
with the new database.


                FEMA’s Progress in Implementing the Remedial Action Management Program 


                                                Page 15

Appendix D
Major Contributors to this Report


                     Amy Hall, Director, Preparedness and Operations Division, Office
                     of Emergency Management Oversight

                     Soraya Vega, Auditor-in-Charge, Preparedness and Operations
                     Division, Office of Emergency Management Oversight

                     Eric Hostelley, Program Analyst, Preparedness and Operations
                     Division, Office of Emergency Management Oversight

                     Ryan Hartong, Program Analyst, Preparedness and Operations
                     Division, Office of Emergency Management Oversight




           FEMA’s Progress in Implementing the Remedial Action Management Program 
 


                                           Page 16
 

Appendix E
Report Distribution


                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff
                      Deputy Chief of Staff
                      General Counsel
                      Executive Secretariat
                      Director, GAO/OIG Liaison Office
                      Assistant Secretary for Office of Policy
                      Assistant Secretary for Office of Public Affairs
                      Assistant Secretary for Office of Legislative Affairs

                      Federal Emergency Management Agency

                      Administrator
                      Assistant Administrator
                      FEMA GAO/OIG Liaison

                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress

                      Congressional Oversight and Appropriations Committees, as
                      appropriate




           FEMA’s Progress in Implementing the Remedial Action Management Program 
 


                                           Page 17
 

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4100,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
